NO. 20-839
IN THE SUPREME COURT OF THE UNITED STATES

KENNETH GREENWAY,
Petitioner,
vs.
BANKS COUNTY, GEORGIA, et al.,
Respondents.
CERTIFICATE OF SERVICE
I, Jason Waymire, certify under penalty of perjury that on
February 4, 2021, I served one copy of the enclosed RESPONSE TO
PETITION FOR CERTIORARI to counsel for all parties electronically
per agreement of counsel. I further certify that all parties required to be
served have been served. Service was addressed as follows:
Craig Thomas Jones craigthomasjones@outlook.com,
Counsel for Petitioner
Michael David Flint mflint@swfllp.com,
Mary Ellen Lighthiser mlighthiser@swfllp.com
Counsel for SHP and Nurse Armenti
This 4 day of February, 2021.

WILLIAMS, MORRIS & WAYMIRE, LLC
/s/ Jason Waymire
JASON WAYMIRE
4330 South Lee St., NE
Building 400, Suite A
Buford, Ga 30518-3027
Telephone: (678) 541-0790
Facsimile: (678) 541-0789

